LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

October 21, 2020

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-416: NESTLÉ USA, INC. V. JOHN DOE I, ET AL.
RE 19-453: CARGILL, INC. V. JOHN DOE I, ET AL.
Dear Sir or Madam:

I hereby certify that at the request of Petitioner, on October 21, 2020, I caused
service to be made pursuant to Rule 29 on the following counsel for the Petitioners and
Respondents:
PETITIONER NESTLÉ USA, INC.:
Neal Kumar Katyal
Hogan Lovells US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
202-637-5528
neal.katyal@hoganlovells.com
PETITIONER CARGILL, INC.:
Andrew John Pincus
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
202-263-3220
apincus@mayerbrown.com

RESPONDENTS:
Paul Lindsey Hoffman
Schonbrun Seplow Harris
& Hoffman LLP
200 Pier Ave. STE 226
Hermosa Beach, CA 90254
310-717-7373
hoffpaul@aol.com

This service was effected by depositing three copies of the Brief of Amici Curiae
Oxfam America and Professors of Economics Joseph E. Stiglitz and Geoffrey M. Heal
in an official “first class mail” receptacle of the United States Post Office as well as by
transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal
Sworn and subscribed before me this 21st day of October 2020.

